Report No. D-2009-006        October 20, 2008




  Small Arms Ammunition Fund Management in
      Support of the Global War on Terror
Additional Information and Copies
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. If you have questions or would
like to obtain additional copies of the report, contact Mr. James L. Kornides at
(614) 751-1400 extension 211.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
AAA                           Army Audit Agency
ASA(FM&C)                     Assistant Secretary of the Army (Financial Management &
                               Comptroller
ASN(FM&C)                     Assistant Secretary of the Navy (Financial Management &
                               Comptroller
FAD                           Funding Authorization Document
GAO                           Government Accountability Office
GWOT                          Global War on Terror
MIPR                          Military Interdepartmental Purchase Request
NAVAUDSVC                     Naval Audit Service
NAVSEA                        Naval Sea Systems Command
NSWC                          Naval Surface Warfare Center
OUSD(C)                       Office of the Under Secretary of Defense (Comptroller)
PEO Ammo                      Program Executive Office for Ammunition
                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                   400 ARMY NAVY DRIVE
                              ARLINGTON, VIRGINIA 22202-4704


                                                                         October 20, 2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                  (COMPTROLLER)/CHIEF FINANCIAL OFFICER
                ASSISTANT SECRETARY OF THE ARMY
                  (FINANCIAL MANAGEMENT AND COMPTROLLER)
                ASSISTANT SECRETARY OF THE NAVY
                  (FINANCIAL MANAGEMENT AND COMPTROLLER)
                PROGRAM EXECUTIVE OFFICER, AMMUNITION


 SUBJECT: Small Arms Ammunition Fund Management in Support of the Global War
          on Terror (Report No. D-2009-006)

 We are providing this report for your information and use. No written response to this
 report was required, and none were received. Therefore, we are publishing this report in
 final form.

 We appreciate the courtesies extended to the staff. Please direct questions to James L.
 Kornides at (614) 751-1400 extension 211. The team members are listed inside the back
 cover.




                                            triJN~            a. /J1rwJv
                                            Patricia A. Marsh, CPA
                                             Assistant Inspector General
                                             Defense Financial Auditing Service
                  Report No. D-2009-006 (Project No. D2008-D000FJ-0014.000)
                                      October 20, 2008

              Results in Brief: Small Arms Ammunition
              Fund Management in Support of the Global
              War on Terror

What We Did                                            What We Found
The objective of this audit was to determine           The Program Executive Office for Ammunition
whether the Military Departments properly              and Military Departments properly managed
managed small arms ammunition funds in                 FY 2007 funds appropriated for small arms
support of the Global War on Terror (GWOT).            ammunition in support of GWOT.
We reviewed:                                              • All congressionally appropriated funds
        • budgetary requests and the two                      for procuring ammunition in support of
            appropriation bills passed by                     GWOT could be tracked from the initial
            Congress for FY 2007 that funded                  appropriation to the funding
            GWOT ammunition procurements;                     authorization documents transmitted to
        • the flow of FY 2007 GWOT funds                      the Military Departments.
            from the Office of the Secretary of           • Program Executive Office for
            Defense (Comptroller) to the                      Ammunition and the Military
            procurement offices;                              Departments adequately managed the
        • the procurement actions performed                   procurement funds for small arms
            by the Program Executive Office for               ammunition as requested to support the
            Ammunition and the Military                       GWOT mission.
            Departments;                                  • The Program Executive Office for
        • the obligations and other relevant                  Ammunition and the Military
            supporting documentation for small                Departments properly maintained
            arms ammunition contracts to                      documentation to support all
            ensure their accuracy and                         procurement actions for small arms
            completeness; and                                 ammunition.
        • the processes used for tracking
            GWOT obligations through the               What We Recommend
            Military Departments’ respective           This report contains no recommendations.
            accounting systems.                        Adequate controls existed for proper fund
                                                       management of small arms ammunition used in
Because the Air Force did not receive any small        support of GWOT.
arms ammunition GWOT funds for FY 2007,
we did not include the Air Force in this report.
                                                       Client Comments
                                                       No written response to this report was required,
                                                       and none were received. Therefore, we are
                                                       publishing this report in final form.




                                                   i
Table of Contents

Results in Brief                             i

Introduction                                 1

       Objective                            1
       Background                           1

Small Arms Ammunition Procurement            3

Appendices

       A. Scope and Methodology             11
              Review of Internal Controls   11
       B. Prior Coverage                    13
Introduction
Objective
The objective of this audit was to determine whether Military Departments properly
managed small arms ammunition funds in support of the Global War on Terror.

Background
Following the terrorist attacks of September 11, 2001, the United States initiated military
operations to combat terrorism in the United States, Iraq, and Afghanistan. Military
operations in Iraq and Afghanistan are known as Operation Iraqi Freedom and Operation
Enduring Freedom, respectively. Efforts to defend the United States from further
terrorist attacks are referred to as Operation Noble Eagle. These operations are
collectively referred to as the Global War on Terror (GWOT). The Office of the Under
Secretary of Defense (Comptroller) (OUSD[C]) considers GWOT a contingency
operation and requests funding from Congress for GWOT through emergency
supplemental and bridge appropriations.

In response to DoD requests for funding to cover the extra costs associated with
conducting operations in support of GWOT, Congress enacted supplemental
appropriations. Supplemental appropriations are additional budget authority given to
DoD beyond original annual appropriations for DoD programs or activities that are too
urgent to be postponed until the next regular appropriation. Congress may also provide
funding using bridge funds. Bridge funds are within annual appropriations and cover
emergency costs for the year until supplemental appropriations are available.

DoD assigned the responsibility for procuring conventional ammunition to the Program
Executive Office for Ammunition (PEO Ammo), located at the Picatinny Arsenal in New
Jersey. The PEO Ammo consolidates ammunition purchase requests from the Army,
Navy, Air Force, U.S. Marine Corps, and other customers. This process is intended to be
more cost effective because of the larger volume of ammunition purchased through
consolidated contracts, rather than allowing each Military Department to issue its own
contracts. The PEO Ammo accomplished its purchase of small arms ammunition for
FY 2007 through four contracts.

The PEO Ammo procured most ammunition for the Navy and Marine Corps. However,
the Naval Surface Warfare Center (NSWC) in Crane, Indiana, administers the contracting
for ammunition that is unique to the Navy and not currently fielded with the PEO Ammo
for procurement actions. Of the FY 2007 funds the Navy received for GWOT
ammunition procurements, NSWC accomplished two procurement actions instead of the
PEO Ammo.

Because the Air Force did not receive any small arms ammunition GWOT funds for
FY 2007, we did not include the Air Force in this report.



                                             1
For the purposes of this audit, we considered small arms ammunition to be ammunition
of .50 caliber and below, specifically all shotgun ammunition, .50 caliber, .45 caliber,
9 mm, 7.62 mm, 5.56 mm, and .22 caliber. We did not make any distinction between
lethal and non-lethal ammunition. The military uses these different types of ammunition
for a variety of machine guns, rifles, carbines, pistols, and shotguns.




                                           2
Small Arms Ammunition Procurement
The Military Departments and the PEO Ammo properly managed FY 2007 funds
appropriated for small arms ammunition in support of GWOT. Specifically:

    •   all funds Congress appropriated for procuring small arms ammunition in support
        of GWOT could be tracked from the initial appropriation to the funding
        authorization documents transmitted to the Military Departments;

    •   the PEO Ammo and the Military Departments adequately managed the
        procurement funds for small arms ammunition as requested to support the GWOT
        mission; and

    •   the Military Departments and the PEO Ammo properly maintained documentation
        to support all procurement actions for small arms ammunition.

Congress Appropriates Funding for the DoD
In FY 2007, Congress appropriated $1,206,963,000 of GWOT funds for all ammunition
in the “U.S. Troop Readiness, Veterans' Care, Katrina Recovery, and Iraq Accountability
Appropriations Act, 2007” and the “Department of Defense Appropriations Act, 2007.”
Congress did not specify what type of ammunition to purchase with the GWOT funds in
those appropriations. The appropriations included money for Army and Navy (including
the Marine Corps) small arms ammunition purchases. The Air Force did not receive any
small arms ammunition GWOT funds for FY 2007. 1

Congress appropriated $919,250,000 for Army GWOT ammunition. Congress also
appropriated $287,713,000 in GWOT ammunition funding for the Navy and Marine
Corps.

DoD Distributes Funding to the Military Departments
The OUSD(C) used Fund Approval for Direct Obligation documents to distribute
congressional appropriations to the Military Departments. The documents specified
whether the funds were base or supplemental. The Funding Authorization Documents
(FADs) detailed the specific caliber of ammunition to purchase with the funding. As
such, the FADs were more specific than the appropriation language.

During FY 2007, the OUSD(C) issued to the Assistant Secretary of the Army (Financial
Management & Comptroller) (ASA [FM&C]) and the Assistant Secretary of the Navy
(Financial Management and Comptroller) (ASN [FM&C]) funding that in total matched
the $1,206,963,000 provided by Congress. This funding amount was for all sizes of
ammunition including small arms ammunition. The documentation showed that


1
  The Air Force did request FY 2007 funds for small arms ammunition. However, the funds were not
included in the final DoD budget submission.


                                                  3
subsequent to the receipt of the FADs, the Military Departments issued $355,297,575 of
the GWOT funds for small arms ammunition to the PEO Ammo. Table 1 shows how the
DoD distributed the funds to each Military Department.

                 Table 1. FY 2007 Small Arms Ammunition Funding
                                         Amount of Funding Provided in
                        Military Dept.     FY 2007 for Small Arms
                                                 Ammunition

                     Army                                $290,950,000
                     Navy                                   21,862,000
                     Air Force                                       0
                     Marine Corps                           42,485,575
                     Total                               $355,297,575

The narrative below illustrates the process of funding the procurement funds for
ammunition by each Military Department and the PEO Ammo.

Military Departments’ Ammunition Procurement Process
After they received funding from the OUSD(C) for use in procuring ammunition, each
Military Department submitted a request for small arms ammunition to the PEO Ammo
for placement of the funding on a contract. With the exception of the Army, the Military
Departments used Military Interdepartmental Purchase Requests (MIPR) to transfer
funding for GWOT ammunition to the PEO Ammo. The Army did not use a MIPR to
provide funding because the PEO Ammo is an Army function. Our conclusions about
accountability and the traceability of the funding in each of the Military Departments
were as follows.

Army Specific Process
We were able to trace the Army funding for small arms ammunition from the
Congressional appropriation to PEO Ammo’s obligation of the funds on contracts.
Congress appropriated $919,250,000 in GWOT supplemental funds for the Army’s
procurement funds for ammunition in two separate laws: Public Law 109-289, “The
Department of Defense Appropriations Act, FY 2007,” and Public Law 110-28, “U.S.
Troop Readiness, Veterans’ Care, Katrina Recovery, and Iraq Accountability
Appropriations Act, 2007.”

Because the PEO Ammo is an Army organization, the process for managing the Army’s
procurement funds for small arms ammunition involved using procurement work
directives to order ammunition. The PEO Ammo used a direct site of the Army’s
ammunition procurement appropriation number (21 X 2034) to procure small arms
ammunition. According to PEO Ammo and Program Manager Maneuver Ammunition
Systems personnel, the remainder of the Army process for funding small arms
ammunition procurements was as follows.




                                            4
               •      The ASA(FM&C) began the ammunition procurement process by releasing
                      $290,950,000 of GWOT funds into its Program Budget and Accounting System in
                      part on October 16, 2006, and the remainder on May 31, 2007.

               •      The PEO Ammo subsequently provided an allotment that allowed the Project
                      Manager, Maneuver Ammunition Systems Picatinny, New Jersey, to obligate the
                      funds within a specified amount.

               •      After receiving direction from PEO Ammo, the Armament Research
                      Development and Engineering Center created an internal funding document and
                      established the GWOT ammunition program in the Army Standard Operation and
                      Maintenance Army Research and Development system.

               •      Upon direction from the Project Manager, Maneuver Ammunition Systems, the
                      Joint Munitions Command at Rock Island, Illinois, subsequently issued
                      procurement work directives to the Picatinny Contracting and Commerce office.
                      We reviewed purchases for Army ammunition made on all contracts; however, we
                      performed detailed testing of contract number W15QKN-06-C-0009 with three
                      Accounting Classification Reference Numbers. Table 2 shows the Procurement
                      Work Directives (PWD) that amended the contract for the ammunition.

                             Table 2. Sample Army Ammunition Procurement Requests
     Accounting                                              Procurement     Procurement
     Classification      Procurement        DoD              Work            Work
     Reference           Request Order      Identification   Directive       Directive      Amended       Amended
     Numbers             Number             Code             Date            Amend          Quantity      Amount
     BM                  4A7S0024M2NG       AA04                17-Nov-06        7-Jan-07     2,219,520   $4,258,595.69
     BN                  4A7S1024M2NG       AA04                 17-Jan-07       4-Feb-07     1,730,560   $3,207,246.85
     CN                  4A7S1113M2NG       AA04                 11-Jun-07      22-Jun-07     2,138,240   $4,050,681.86

          To test the accuracy and accountability of the funding that was placed on the Army
          contract W15QKN-06-C-0009, we traced the funding from the procurement work
          directives to the contract documents. We determined that all small arms ammunition
          funding was properly placed on the contract. In total, the Army purchased
          6,088,320 rounds of 7.62 mm ammunition for $11,516,524.40 as shown in Table 3.

                          Table 3. Army Procurement Requests and Contracted Amounts
Accounting                                                   Procurement
Classification        Procurement        Procurement         Work
Reference             Request Order      Work Directive      Directive                                         Contract
Number                Number             Amount              Quantity        Contract       Contract Amount    Quantity
                                                                             W15QKN-
BM                    4A7S0024M2NG        $ 4,258,595.69        2,219,520    06-C-0009       $ 4,258,595.69      2,219,520
                                                                             W15QKN-
BN                    4A7S1024M2NG          3,207,246.85        1,730,560    06-C-0009          3,207,246.85     1,730,560
                                                                             W15QKN-
CN                    4A7S1113M2NG          4,050,681.86        2,138,240    06-C-0009          4,050,681.86     2,138,240
Total                                     $11,516,524.40        6,088,320                     $11,516,524.40     6,088,320



                                                               5
The Army made procurements on this contract using three different contract
modifications. We verified that the contracts included the proper quantity and expense
for the rounds of ammunition. Overall, the PEO Ammo placed the requirements on one
of the four contracts for procuring the various calibers of small arms ammunition. We
examined the procurement documentation and determined that the Army properly
controlled funding for small arms ammunition in support of GWOT and PEO Ammo
properly placed the funding on contracts.

Navy Specific Process
We were able to trace the GWOT funding for small arms ammunition procurement
through the process the Navy used to allocate and account for funding. We did not detect
any inappropriate use of the funding. The Navy received $21,862,000 in FY 2007 funds.
We were able to account for all the funding and matched the funds to MIPRs provided to
the PEO Ammo or work orders provided to NSWC Crane. The Navy used a Navy
appropriation number (17 X 1508) for procuring all of its small arms ammunition.

The Navy received funding from the OUSD(C) in October 2006 and May 2007. The
ASN(FM&C) forwarded that funding for GWOT ammunition to the Naval Sea Systems
Command (NAVSEA) in October 2006 and May 2007, respectively. Navy processed the
funds as follows.

   •   OUSD(C) provided a FAD with $21,862,000 to the ASN(FM&C) on
       May 25, 2007.

   •   The Department of the Navy, Office of Budget/Fiscal Management Division
       provided the $21,862,000 of GWOT funding to the Commander, NAVSEA using
       a FAD on May 29, 2007. NAVSEA then allocated the funds to individual
       ammunition line items.

   •   The Commander, NAVSEA provided two Project Directive/Work Orders in June
       2007 and two MIPRs in July 2007 to the NSWC to administer the procurement
       actions for the “Small Arms and Landing Party” budget line item.

   •   The NSWC prepared two MIPRs that it sent to the PEO Ammo on October 15,
       2007, and July 9, 2007, respectively, through the Joint Munitions Command at
       Rock Island, Illinois, for placement on a contract.

   •   PEO Ammo accepted the MIPRs on November 1, 2007, and August 3, 2007,
       respectively, and provided a copy to the NAVSEA Comptroller.

   •   The NSWC issued two separate contracts for ammunition unique to the Navy that
       PEO Ammo did not handle.

According to NAVSEA personnel, the Army’s PEO Ammo determined when to place the
Navy funds on a particular contract. We verified that the funding the Navy provided was


                                           6
obligated on two of the four contracts the PEO Ammo had established to purchase
GWOT ammunition. In addition, we obtained copies of the two contracts issued by the
NSWC and verified that the specific line items were for GWOT ammunition and that the
funds provided were put on the contract.

Records showed that NAVSEA tracked GWOT funds for ammunition using a cost code
field in the line of accounting. During FY 2007, NAVSEA placed code “AH101” in each
cost code to indicate that the funds were supplemental GWOT appropriations. We
verified that the $21,862,000 of funding for GWOT ammunition matched the amount the
Navy received and provided. Table 4 shows the details of the Work Orders and MIPRs
for small arms ammunition

                          Table 4. Sample Navy Procurement Requests
                       Date                         MIPR No./Work Order                 Amount


                    6/29/2007                N0002407WX40206                           $ 1,582,000
                    6/29/2007                N0002407WX40209                                 18,000
                                                     Total Work Order to NSWC             1,600,000
                     7/9/2007                N4802907MPA7B38                            20,000,000
                     7/9/2007                N4802907MPA7B39                               262,000
                                                      Total MIPR to PEO Ammo            20,262,000
        Total GWOT Funding Provided                                                    $21,862,000


Navy Contracting Outside of PEO Ammo Channels. Of the two work orders that
were issued on June 29, 2007, (previously identified) the NSWC issued two contracts.
Table 5 details the specifics of these contracts.

                                Table 5. Navy Contracted Amounts
            Date Issued              Contract No.               Contractor         Amount 2
              10/29/2007      N00164-05-D-4816/0006           Combined            $1,581,992.62
                                                              Systems Inc.

              11/13/2007      N00164-06-D-4884                Olin                    17,901.44
                                                              Corporation
           Total                                                                  $1,599,894.06


We asked the ASN(FM&C) personnel why the NSWC did not use the PEO Ammo as the
Single Manager of Conventional Ammunition for the two contracts they issued. Navy
Comptroller personnel told us that small arms ammunition that were not procured
through the PEO Ammo were the new ammunition types that are Navy specific and still


2
 The amounts represented in this table are single line items in a larger contract. The funding provided did
not exactly equal $1,599,894.06, but we consider the difference to be immaterial.


                                                     7
in a Low Rate Initial Production status. In addition, they provided documentation that
indicated the Navy was permitted to go outside of the PEO Ammo for ammunition that
was already available on contracts initiated or controlled by a Military Department other
than Army, such as the Special Operations Command or the USMC. The Navy
Comptroller personnel further stated that in the case of the LA51/LA52 12 gauge rounds,
the ammunition was developed for a Navy-specific purpose and both ammunition types
had not been fully fielded at the time. However, the Navy expects them to be slated for
transition to PEO Ammo once they have been fully fielded and sufficient usage data has
been established. The AA16 9 mm Frangible is a frangible item that was developed for
USMC use and some Naval units have started using it. The Navy stated that, at the time
of the audit, the PEO Ammo did not deal with frangible ammunition.

The records we examined showed the Navy provided adequate fund control to ensure the
funds for GWOT ammunition were appropriately distributed and used for procuring
small arms ammunition.

Marine Corps Specific Process
We traced the $42,485,575 the Marine Corps received for GWOT ammunition from the
appropriation to the contract. At the time of the audit, the Marine Corps had obligated
$42,485,575 of the funds received for GWOT small arms ammunition. We found no
discrepancies, diversions, or misuse of the funds. The Marine Corps accounted for all of
the funding that it received from the ASN(FM&C) and forwarded MIPRs to the PEO
Ammo to procure ammunition. In addition, the Marine Corps adequately documented the
flow of funding. The following shows the Marine Corps procurement process:

   •   The Navy Comptroller sent two FADs totaling $463,408,000 to the Commandant
       of the Marine Corps for procuring all types of ammunition on October 6, 2006,
       and May 29, 2007, respectively.

   •   The Director of Financial Management at Marine Corps Systems Command
       (Comptroller) allocated the funds to the specific budget line items.

   •   The Marine Corps Program Manager for Ammunition prepared 10 MIPRs that
       were sent to the PEO Ammo for placement on a contract totaling the $42,485,575
       for GWOT small arms ammunition. Table 6 details the MIPRs and contracts the
       PEO Ammo placed the funds on for procuring GWOT ammunition.




                                            8
     Table 6. Marine Corps Procurement Requests and Contracted Amounts
      MIPR No.       Date       Quantity         Amount                Contract No.
     M07-00021     11/14/2006     358,000        $     96,980    DAAA09-99-D-0016/0017
     M07-71049     11/27/2006    1,644,800           4,946,407   W52P1J-05-G-0002
     M07-71048       2/7/2007   65,372,160        16,436,879     DAAA09-99-D-0016/0017
     M07-00026      2/12/2007   18,092,000        11,078,192     DAAA09-99-D-0016/0017
     M07-71152       6/4/2007   18,024,720           4,657,779   W52P1J-05-G-0002
     M07-71144       6/4/2007    3,818,400           2,131,776   W52P1J-05-G-0002/M5
     M07-71147       6/4/2007    1,060,000            154,789    W52P1J-06-D-0031/0003
     M07-71145       6/4/2007     274,000              98,600    DAAA09-99-D-0016/0017
     M07-71146       6/4/2007     875,400            2,419,674   DAAA09-99-D-0016
     M07-00024       7/2/2007    3,204,000            464,499    W52P1J-06-D-0031
     Total                                       $42,485,575


Once the PEO Ammo accepted the MIPRs, the Marine Corps recorded the $42,485,575
of funding in the Marine Corps accounting system (that is, the Standard Accounting,
Budgeting and Reporting System) until deliveries were received and funds were
liquidated.

The records we examined showed that the Marine Corps had an adequate method for
tracking its supplemental funding for GWOT through its line of accounting. The fifth
position in its Requisition Control Number had either a “B” for base or “S” for
supplemental (GWOT). Marine Corps personnel stated that they issued separate
documents for the same type of ammunition, depending upon whether they were using
GWOT or non-GWOT funds. For example, the Marine Corps Program Manager for
Ammunition’s documents showed that when the Marine Corps had a requirement for
5.56 mm ammunition and it was using both base and supplemental funds, the Marine
Corps Program Manager issued separate documents with unique lines of accounting for
each request.

PEO Ammo Funds Management
The PEO Ammo accomplished its purchase of small arms ammunition during FY 2007
using four contracts. Table 7 shows the contracts and the contractors.




                                             9
                             Table 7. PEO Ammo Contracts
                      Item                Contract Number         Contractor
          Various Small Cal Ammo       W52P1J-05-G-0002       General Dynamics
          (A059, A062, AA33, A111,                            – OTS
          A131, A557, A576)
          Various Small Cal Ammo       DAAA09-99-D-0016       Alliant
          (A059, A111, A131, A557,                            Techsystems, Inc.
          A576)
          CTG 7.62MM ARMOR             W15QKN-06-C-0009       Nammo
          PIERCING M993
          CTG CAL .50 SLAP M903        W15QKN-07-C-0110       Olin Winchester
          (SLAPT M962)


We believe the PEO Ammo maintained adequate control of funds management over the
ammunition procurement program. In addition, the PEO Ammo properly maintained
documentation supporting all procurement actions for GWOT ammunition.

When the PEO Ammo accepted the MIPRs from the Military Departments, it maintained
an electronic record to account for all of the funding it received. We verified that the
PEO Ammo electronic records contained an adequate audit trail. Specifically, the PEO
Ammo maintained the electronic records using a Cost to Complete worksheet that
identified all MIPRs the PEO Ammo had accepted, total dollars received on each MIPR,
total dollars committed and obligated, and additional overhead charges for items that
included containers for the ammunition, engineering support, quality and acceptance
testing, and any other costs associated with production. We reviewed a select sample of
Cost to Complete reports and determined that the PEO Ammo was properly maintaining
and accounting for all funds.

Conclusion
The PEO Ammo and the Military Departments properly managed the $355,297,575 of
FY 2007 GWOT funds that Congress appropriated and OUSD(C) designated for small
arms ammunition in support of GWOT. Specifically:

   •   the $355,297,575 Congress appropriated and OUSD(C) designated for procuring
       small arms ammunition in support of GWOT could be tracked from the initial
       appropriation to the funding authorization documents transmitted to the Military
       Departments;

   •   the PEO Ammo and the Military Departments adequately managed procuring
       small arms ammunition as requested to support the GWOT mission; and

   •   the Military Departments and the PEO Ammo properly maintained documentation
       to support all procurement actions for small arms ammunition.




                                           10
Appendix A. Scope and Methodology
We conducted this financial-related audit from October 2007 through June 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

To achieve the audit’s objective, we reviewed the Military Departments’ budgetary
requests for supplemental and emergency funding for the Global War on Terror. We
reviewed the FY 2007 Global War on Terror funding received from Congress in Public
Law 109-289, “The Department of Defense Appropriations Act, FY 2007,” and Public
Law 110-28, “U.S. Troop Readiness, Veterans’ Care, Katrina Recovery, and Iraq
Accountability Appropriations Act, 2007.” We traced these funds from the
Congressional appropriation to the Office of the Under Secretary of Defense
(Comptroller) through the distribution to the Military Departments. We then analyzed
the Military Departments’ orders to the PEO Ammo and verified that the orders were
properly placed on contract and obligated.

In order to verify the proper placement of Military Departments’ orders on contract, we
reviewed purchases made on all contract files in each of the four PEO Ammo issued
contracts that were active during FY 2007. In addition, we reviewed two contracts issued
by the Naval Surface Warfare Center for ammunition that was not available for
procurement through the PEO Ammo contracts. We focused only on procurement
actions occurring during FY 2007.

The Air Force did not receive Global War on Terror funding during FY 2007 for
procuring small arms ammunition. We reviewed the original budget request by the Air
Force which was for the development of a new pistol and for ammunition. The Office of
the Under Secretary of Defense (Comptroller) did provide $3,000,000 on a Funding
Authorization Document for “Small Arms” which was for M2 .50 caliber weapons and
improvement kits only. As a result, the audit and the report do not include the Air Force
small arms ammunition procurement process.

Review of Internal Controls
We determined that internal controls by the PEO Ammo, the Assistant Secretary of the
Army (Financial Management & Comptroller), the Assistant Secretary of the Navy
(Financial Management & Comptroller), the Naval Sea Systems Command, and the
Commandant of the Marine Corps (Comptroller) over procuring small arms ammunition
using funds appropriated for the Global War on Terror, as defined by DoD Instruction
5010.40, “Managers’ Internal Control (MIC) Program Procedures,” January 4, 2006,
were adequate as they applied to the audit objectives.




                                           11
Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.




                                          12
Appendix B. Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), Army Audit
Agency (AAA), and the Naval Audit Service (NAVAUDSVC) have issued 18 reports
discussing Global War on Terror funding or small arms ammunition programs.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.

GAO
GAO Report No. GAO-08-68, “DoD Needs to Take Action to Encourage Fiscal
Discipline and Optimize the Use of Tools Intended to Improve GWOT Cost Reporting,”
November 6, 2007

GAO Report No. GAO-07-1056R, “Global War on Terrorism: Reported Obligations for
the Department of Defense,’ July 26, 2007

GAO Report No. GAO-07-783R, “Global War on Terrorism: Reported Obligations for
the Department of Defense,’ May 18, 2007

GAO Report No. GAO-07-542T, “Federal Financial Management: Critical
Accountability and Fiscal Stewardship Challenges Facing Our Nation,” March 1, 2007

GAO Report No. GAO-06-885T, “Global War on Terrorism: Observations on Funding,
Costs, and Future Commitments,” July 18, 2006

GAO Report No. GAO-05-882, “Global War on Terrorism: DoD Needs to Improve the
Reliability of Cost Data and Provide Additional Guidance to Control Costs,”
September 21, 2005

GAO Report No. GAO-05-767, “Global War on Terrorism: DoD Should Consider All
Funds Requested for the War When Determining Needs and Covering Expenses,”
September 28, 2005

GAO Report No. GAO-05-687, “DoD Meeting Small and Medium Caliber Ammunition
Needs, but Additional Actions Are Necessary,” July 27, 2005

GAO Report No. GAO-04-668, “Military Operations: DoD’s Fiscal Year 2003 Funding
and reported Obligations in Support of the Global War on Terrorism,” May 13, 2004

GAO Report No. GAO-04-514, “Future Years Defense Program: Actions Needed to
Improve Transparency of DoD’s Projected Resource Needs,” May 7, 2004

Army
AAA Report No. A-2007-0224-FFP, “Followup Audit of Ammunition Pricing Practices,
Office of the Program Executive Officer, Ammunition, Picatinny Arsenal, New Jersey,”
September 21, 2007


                                         13
AAA Report No. A-2005-0069-ALA, “Attestation Review on Funding Improvements to
the Army’s Ammunition Industrial Base,” December 10, 2004

AAA Report No. A-2004-0519-AMA, “Managing the Army’s Ammunition Mission,
Office of the Program Executive Officer, Ammunition, Picatinny Arsenal, New Jersey
and U.S. Army Joint Munitions Command, Rock Island, Illinois,” September 20, 2004

AAA Report No. A-2004-0269-IMT, “Ammunition and Small Arms, California Army
National Guard,” April 30, 2004

AAA Report No. A-2004-0222-AMA, “Ammunition Pricing Practices, Office of the
Program Executive Officer, Ammunition, Picatinny Arsenal, New Jersey,” April 2, 2004

Navy
NAVAUDSVC Report No. N2008-0008, “Marine Corps Small Arms,” November 23,
2007

NAVAUDSVC Report No. N2007-0029, “The Navy’s Small Arms and Weapons
Program,” May 1, 2007

NAVAUDSVC Report No. N2005-0018, “Marine Corps Systems Command Contracts
Supporting Operation Iraqi Freedom,” December 22, 2004




                                         14
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed below.

Patricia A. Marsh
Daniel R. Blair
James L. Kornides
Clarence E. Knight III
Benjamin M. Howison
Erin S. Hart
